 

WAIVER

Supreme Court of the United States

No. 21-359
Flomo Tealeh v Ward County, North Dakota, ct al
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:

& 1am filing this waiver on behalf of all respondents.

 

© lonly repre: some respondents. | am filing this waiver on behalf of the following

respondent(s):

Please check the appropriate box:

M Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

Q 1am not presently a member of the Bar of this Court. Should a response he requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

   

/s/ Scott K. Porsborg

Signature _”

 

Date:__ September 20, 2021

(Type or print) Name Scott K. Porsborg

Mr. OMs “OMrs. ‘Miss

Firm _Smith Porsborg Schweigert Armstrong Moldenhauer & Smith

 

P.O. Box 460

Adavess _.
City & Stare Bismarck, ND Zip 58502-0460

Phone _ 701-258-0630 Email _ Sporsborg@smithporsborg.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER JF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED

ce: Mr. Flomo Tealeh
1414 S. 3rd Street. Apt. 406
Minneapolis, MN 55454
